        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department of Energy's Loan
Guarantee Program for Innovative
Energy Technologies




DOE/IG-0812                      February 2009
AUDIT REPORT ON THE DEPARTMENT OF ENERGY'S LOAN
GUARANTEE PROGRAM FOR INNOVATIVE ENERGY
TECHNOLOGIES

TABLE OF
CONTENTS


Loan Guarantee Program Structure

Details of Finding ……………………………………………………………………1

Recommendations ……………………………………………………………………6

Management Reaction………………………………………………………………..7


Appendices

1. Objective, Scope, and Methodology……………………………………………..9

2. Prior Reports…………………………………………………………………... 11

3. Management Comments……………………………………………………… 13
LOAN GUARANTEE PROGRAM STRUCTURE


Introduction            The Energy Policy Act of 2005 (Energy Policy Act)
                        authorized the Department of Energy (Department) to
                        guarantee loans for new or significantly improved energy
                        production technologies that avoid, reduce, or sequester air
                        pollutants and other greenhouse gases. In August 2006, the
                        Department issued its first solicitation for loan guarantees,
                        and invited 16 respondents to the solicitation to submit full
                        applications for loan guarantees in October 2007. The
                        Department also announced three solicitations for nuclear
                        power facilities, front end nuclear facilities for the
                        production of nuclear fuel, and energy efficiency,
                        renewable energy, and advance electricity transmission and
                        distribution technologies in June 2008. The Department
                        issued a solicitation for advanced fossil energy projects in
                        September 2008. Collectively, the Department's
                        solicitations make $42.5 billion available in loan guarantees
                        to support innovative energy projects.

                        As of November 2008, the Department had received 11
                        substantially complete applications for projects requesting
                        approximately $8.2 billion in debt financing in response to
                        the 2006 solicitation. The Department also received 19
                        applications (part one of a two part process) for the
                        construction of nuclear power plants and two applications
                        for front end nuclear fuel cycle facilities. The Department
                        planned to rank proposed projects based upon information
                        provided by applicants in the first part of the application.
                        The Department also planned to provide the ranking
                        information to the applicants so that they could decide
                        whether to continue seeking a guarantee by completing the
                        second part of the application. Applicant responses to the
                        2008 advanced fossil energy technologies solicitation were
                        due on December 22, 2008, and the applications for the
                        energy efficiency, renewable energy and advanced
                        electricity transmission and distribution technologies are
                        due to the Department in February 2009.

                        The Energy Policy Act required the Secretary of Energy to
                        make a determination that there is a "reasonable prospect"
                        of repayment of the guaranteed debt. As part of its "due
                        diligence" to support such a determination, the Department
                        had begun reviewing technical information, business and
                        financial plans, and proposed project organization and
                        staffing information provided by applicants for projects
                        resulting from the 2006 solicitation. The Department
                        expects to approve and issue the first loan guarantees in
________________________________________________________________________
Page 1                                                   Details of Finding
                        response to the 2006 solicitation during the spring of 2009.
                        In response to the 2008 solicitations, the Department has
                        reviewed the first part of the 19 applications for nuclear
                        power plants and has provided an initial ranking of the
                        projects to the applicants. The Department is also
                        reviewing the two applications for the front end nuclear
                        fuel cycle facilities.

Program Structure       As of December 2008, the Department had not fully
                        established controls necessary to award loan guarantees and
                        to monitor guaranteed projects. Specifically, the
                        Department had yet to:

                            •   Finalize policies and procedures for evaluating loan
                                applications, approving loan guarantees, monitoring
                                project and loan guarantee performance; qualifying
                                potential lenders and monitoring participating
                                lenders;

                            •   Formally document portions of its applicant
                                reviews, including information about potential
                                changes to an applicant's business environment;
                                and,

                            •   Formalize procedures for disbursing loan proceeds
                                to successful applicants.

                                          Policies and Procedures

                        The Department had not finalized key policies and
                        procedures needed for loan application review and
                        approval, project and portfolio management, qualifying
                        potential lenders and monitoring participating lenders. To
                        protect the Government's interest, Title XVII of the Energy
                        Policy Act of 2005, required that "no guarantee shall be
                        made unless the Secretary determines that there is a
                        reasonable prospect of repayment of the principal and
                        interest on the obligation by the borrower." The
                        Department had drafted, but not finalized those policies and
                        procedures necessary to make a "due diligence"
                        determination, including those related to project screening,
                        underwriting, recovery analysis, estimating credit subsidies,
                        credit monitoring and management, credit approval, and
                        environmental requirements reviews. Further, accounting
                        procedures for loan guarantees and procedures for
                        qualifying potential lenders and monitoring participating

________________________________________________________________________
Page 2                                                   Details of Finding
                        lenders had not been finalized. Management told us that
                        they plan to have these policies and procedures approved
                        by the Credit Review Board by January 2009.

                        In one area particularly important to the financial viability
                        of the program, the Department had not finalized
                        procedures necessary to estimate potential losses in the
                        event of loan default. After 15 months of negotiations, the
                        Department received approval from the Office of
                        Management and Budget regarding the design and
                        implementation of a Credit Subsidy Model that is intended
                        to estimate potential losses to the Government in the event
                        of project failure and/or applicant default. The estimated
                        losses will be used to determine the amount an applicant
                        must pay in advance of receiving a loan guarantee – a fee
                        designed to mitigate, to some extent, the financial risk to
                        the taxpayer. The amount is important to both the
                        Department and the applicants because it is designed to
                        defray potential losses to the government and represents a
                        cost to the borrower.

                        However, the Department had not finalized procedures for,
                        among other things, evaluating project financing and cash
                        flow, and estimating potential recoveries in the event of
                        default. The data produced by these procedures are
                        important inputs to the Credit Subsidy Model and are
                        therefore critical to determining applicant fees. According
                        to management, these procedures have been drafted, but
                        could not be finalized until final approval of the Credit
                        Subsidy Model was obtained from the Office of
                        Management and Budget. Management also indicated that
                        it expects to have the Credit Review Board approve the
                        procedures in January 2009, prior to presentation of the
                        first loan guarantee to the Credit Review Board.

                        Ensuring that the Department has established policies and
                        procedures for applying the Credit Subsidy Model are
                        important since delays in determining the amount of cost to
                        be paid by applicants could adversely affect projects to be
                        financed through guaranteed loans. For example, one
                        applicant to the 2006 solicitation informed the Department
                        in September 2008 that it needed a rough estimate and
                        range of the credit subsidy cost since a high credit subsidy
                        cost could negatively affect the applicant's ability to move
                        forward. Specifically, the applicant noted that delays in
                        obtaining an estimate of the credit subsidy cost could
                        jeopardize its ability to move forward with the project and
________________________________________________________________________
Page 3                                                   Details of Finding
                        would adversely affect key decisions such as purchasing
                        land on which the facility would be built and
                        commissioning architects to prepare engineering plans and
                        design. According to management, it provided an estimate
                        of the credit subsidy cost for this particular project to the
                        applicant in December 2008.

                        Finally, the Department had not issued guidance for when
                        project reviewers should use independent outside advisory
                        consultants to assist in the review of loan applications. The
                        Department plans to use consultants to analyze market,
                        legal, financial and engineering aspects of the projects.
                        Loan Guarantee Program Office managers told us that in
                        general, independent advisory consultants for legal and
                        engineering services would always be used; however,
                        consultants for market and financial services would be used
                        on a case-by-case basis, depending on the complexity of the
                        project. Formal guidance on the use of independent
                        advisory consultants would help ensure consistent
                        underwriting and project monitoring for each of the
                        applicants.

                        Subsequent to the completion of our fieldwork,
                        management informed us that it had finalized the "Title
                        XVII of the Energy Policy Act of 2005 Loan Guarantee
                        Program Credit Policies and Procedures" manual. The
                        Credit Review Board approved the manual on January 15,
                        2009.

                                    Application Review Documentation

                        The Department had not fully documented or recorded the
                        results of reviews of loan guarantee applicants. Documents
                        and analyses relevant to the Department's review of
                        applications were not always included in the Loan
                        Guarantee Program Office's official electronic data
                        repository. In one instance, for example, a site visit was
                        conducted by Department personnel, but was not
                        documented in the data repository. Further, notable events
                        relative to applicants' operations including changes in
                        senior management, company reorganization, and pending
                        litigation were not documented in the system. The
                        Department's recent solicitations note that application
                        reviews will include a detailed analysis of, among other
                        things, the applicant's organization and staffing, and
                        changes in the project since the application information was
                        submitted. As a result of our audit, the Loan Guarantee
________________________________________________________________________
Page 4                                                   Details of Finding
                        Program Office prepared a guidance document to be used
                        when documenting its due diligence reviews in the project
                        management system. Also, project managers updated
                        selected files to reflect the results of due diligence efforts.

                                       Loan Disbursement Mechanism

                        The Department is required to use the Federal Financing
                        Bank as the provider of funds in cases where the loan is
                        fully financed through the Loan Guarantee Program.
                        Specifically, Office of Management and Budget Circular
                        A-129 requires that agency guarantees of 100 percent of the
                        loan amount must be financed through the Department of
                        the Treasury's Federal Financing Bank. Department
                        regulations for the loan guarantee program permit
                        guarantees of up to 100 percent of the loan amount. In fact,
                        the 11 substantially complete applications received by the
                        Department are for 100 percent guarantees. As of
                        December 2008, Loan Guarantee Program officials had not
                        reached an agreement with the Federal Financing Bank
                        establishing the details on how loans will be disbursed.
                        The Loan Guarantee Program Office had the standard
                        forms used by the Federal Financing Bank to establish a
                        loan disbursement mechanism. However, the Loan
                        Guarantee Program Office had not completed the forms and
                        formalized its working relationship with the Federal
                        Financing Bank – both of which were required prior to
                        disbursing funds to loan guarantee recipients.

Program Staffing and    The Department had not fully established controls because
Competing Priorities    it had not fully staffed the Loan Guarantee Program Office
                        and experienced competing demands for its limited staff
                        and resources. As of January 2009, the Loan Guarantee
                        Program had16 full-time federal employees that were
                        augmented by 7 full-time and 4 part-time contractor staff.
                        According to the Loan Guarantee Program, the number of
                        onboard staff is not adequate to, among other things,
                        monitor disbursed loans and to complete the due diligence
                        and credit underwriting for applicants to the 2008
                        solicitation. Accordingly, the Loan Guarantee Program
                        identified the need for an additional 21 employees in fiscal
                        year (FY) 2009. Management stated that it has sufficient
                        funding under the FY 2009 Continuing Resolution to hire
                        14 additional staff by the end of March 2009. Management
                        also stated that it will be unable to hire additional staff after
                        that date without the enactment of its proposed FY 2009
                        budget request.
________________________________________________________________________
Page 5                                                   Details of Finding
                       The Department focused its efforts on issuing new
                       solicitations for renewable energy, nuclear and nuclear fuel
                       facilities and clean coal projects. In February 2007, the
                       Government Accountability Office reported that the
                       Department focused on initiating the Loan Guarantee
                       Program by soliciting pre-applications for proposed
                       projects rather than taking and completing key steps to
                       ensure that the Loan Guarantee Program would be well
                       managed and accomplish its objectives. We noted that in
                       2008, the Department continued its focus on issuing
                       solicitations for projects. Specifically, in 2008, the
                       Department issued four solicitations totaling $38.5 billion
                       in loan guarantee authority. Three of these solicitations
                       were issued on June 30, 2008, and the final solicitation was
                       issued September 22, 2008. Loan Guarantee Program
                       officials told us that the emphasis on issuing solicitations
                       was driven by the September 30, 2009, expiration date of
                       the 2008 loan authority of $38.5 billion, and concerns
                       expressed by Congress, industry and the public about rising
                       energy costs and the availability of capital to finance
                       innovative energy projects.

                       In recognition of the realities of the environment in which it
                       was operating, management chose to focus resources on
                       issuing new solicitations – a path that absorbed staffing
                       resources that could have been otherwise directed towards
                       finalizing important internal controls.

RECOMMENDATIONS        The Department had not completed the development and
                       implementation of controls necessary to manage the
                       Government's significant financial risk exposure and to
                       ensure the success of the Loan Guarantee Program in
                       meeting its overall objective of promoting the use of
                       innovative energy technologies. To help ensure the
                       ultimate success of the Loan Guarantee Program, we
                       recommend that the Director, Loan Guarantee Program:

                          1. Finalize policies and procedures needed to complete
                             the evaluation of loan applications, approval of loan
                             guarantees, monitoring project and loan guarantee
                             performance, qualifying potential lenders and
                             monitoring participating lenders;




________________________________________________________________________
Page 6                                                 Recommendations
                          2. Prepare a policy or guidance document establishing
                             the conditions requiring the use of independent
                             advisory consultants;

                          3. Document material aspects of loan application
                             reviews, such as site visits, in the official electronic
                             project files;

                          4. Formalize procedures for disbursing loan proceeds
                             with the Federal Financing Bank; and,

                          5. Take action necessary to ensure that the Loan
                             Guarantee Program is fully staffed and capable of
                             meeting all requirements.

MANAGEMENT             Management concurred with the recommendations
REACTION               and stated that it was in the process of implementing
                       corrective actions. Additionally, management stated that it
                       is committed to managing the Loan Guarantee Program
                       Office carefully to maintain the integrity of the Loan
                       Guarantee Program as well as to promote the objectives of
                       the Title XVII program while protecting the American
                       taxpayer. Subsequent to our fieldwork, management
                       finalized and obtained approval for "Title XVII of the
                       Energy Policy Act of 2005 Loan Guarantee Program Credit
                       Policies and Procedures" manual (Manual). The Manual
                       was approved by the Credit Review Board on January 15,
                       2009. According to management, the Manual defines the
                       specific procedures for the utilization of independent
                       advisory consultants.

                       Management stated that as a result of our audit, the Loan
                       Guarantee Program Office issued "Guidelines for
                       Populating LGPO's E-Docs Filing System" for the purpose
                       of providing a central, readily accessible, and current
                       source of relevant documents and information generated, or
                       received, by the Loan Guarantee Program Office in
                       conducting business. Management also stated that the
                       E-Docs system is not meant to capture every piece of
                       project-related guidance correspondence ever produced or
                       all public information generated during the life of a project.
                       Management committed to work with the Federal Finance
                       Bank and other parties to ensure that procedures for
                       disbursing loan proceeds are finalized in accordance with
                       applicable rules and regulations. Finally, management
                       stated it will continue to recruit and hire

________________________________________________________________________
Page 7                                                        Comments
                       qualified personnel of the highest caliber to complete the
                       project origination, monitoring and oversight activities of
                       applicants to the 2008 solicitations.

AUDITOR                Management comments are responsive to our
COMMENTS               recommendations. In response to management comments
                       on finalizing policies and procedures for the Loan
                       Guarantee Program Office, we acknowledge the
                       completion of the Credit Policies and Procedures Manual
                       on January 15, 2009. As noted in our report, however, the
                       Department needs to complete its accounting procedures
                       for loan guarantees and its procedures for disbursing loan
                       proceeds.




________________________________________________________________________
Page 8                                                        Comments
Appendix 1

OBJECTIVE               The objective of our audit was to evaluate the Department's
                        progress in establishing internal and operational controls
                        over its Loan Guarantee Program.

SCOPE                   The audit was performed between September and
                        December 2008, at the Loan Guarantee Program Office at
                        the Department of Energy's Headquarters in Washington,
                        D.C. The scope of the audit included activities performed
                        by the Loan Guarantee Program since inception through
                        December 2008.


METHODOLOGY             To accomplish the audit objective, we:

                           •   Reviewed laws and regulations applicable to the
                               Loan Guarantee Program;

                           •   Reviewed key documents such as the Credit
                               Policies and Procedures Manual and the Concept of
                               Operations Manual;

                           •   Analyzed the technical and financial review sheets
                               for the applicants that responded to the 2006
                               solicitation;

                           •   Reviewed the Credit Review Board Meeting
                               Minutes;

                           •   Evaluated the audit recommendation tracking
                               spreadsheet;

                           •   Reviewed the procurement files for advisory
                               services;

                           •   Reviewed the official project files contained in the
                               electronic data repository;

                           •   Interviewed key personnel in the Loan Guarantee
                               Program and the Department's Office of
                               Management and Administration;

                           •   Met with representatives from the Federal
                               Financing Bank;




________________________________________________________________________
Page 9                                  Objective, Scope, and Methodology
Appendix 1 (continued)______________________________________________

                           •   Coordinated with personnel from the United States
                               Department of Agriculture and Export-Import Bank
                               Office of Inspector General; and,

                           •   Observed a "mock" application of the Draft Credit
                               Subsidy Cost Model.

                        We conducted this performance audit in accordance with
                        generally accepted Government auditing standards. Those
                        standards require that we plan and perform the audit to
                        obtain sufficient, appropriate evidence to provide a
                        reasonable basis for our finding and conclusion based on
                        our audit objective. We believe that the evidence obtained
                        provides a reasonable basis for our finding and conclusion
                        based on our audit objective. The audit included test of
                        controls and compliance with laws and regulations related
                        to the Loan Guarantee Program. Because our review was
                        limited, it would not necessarily have disclosed all internal
                        control deficiencies that may have existed at the time of our
                        audit. Also, we examined the establishment of
                        performance measures in accordance with the Government
                        Performance and Results Act of 1993, as it related to the
                        audit objective. The Loan Guarantee Program had not
                        established performance measures regarding the
                        establishment of controls. We did not rely on computer
                        processed data to satisfy our audit objective.

                        We met with management and discussed the results of our
                        work during the course of the audit. Management waived
                        the exit conference.




________________________________________________________________________
Page 10                                 Objective, Scope, and Methodology
Appendix 2


                                    PRIOR REPORTS
   
Office of Inspector General
  
• Loan Guarantees for Innovative Energy Technologies (DOE/IG-0777, September 19,
    2007). The Office of Inspector General conducted this special review to identify
    lessons learned from prior Departmental loan guarantee and related programs and
    obtained information from other Federal agencies with experience in such
    agreements. The Department of Energy's Loan Guarantee Program is a multi-year,
    multi-billion dollar program that is complex and contains certain inherent financial
    and programmatic vulnerabilities. Under these circumstances, and based on past
    experience, the Department's Loan Guarantee Program needs to be closely managed.
    While the actions taken by the Department to date were commendable, the report
    concluded that there were a number of additional steps that should have been taken to
    foster the success of the loan guarantee program. These included finalizing a staffing
    plan, developing risk mitigation strategies, implementing and executing a monitoring
    system, and promulgating procedures relating to loan defaults. 

Government Accountability Office
  
• New Loan Guarantee Program Should Complete Activities Necessary for Effective
   and Accountable Program Management, (GAO-08-750, July 7, 2008). The
   Government Accountability Office (GAO) report acknowledged that it would take
   some time to create a new office and hire staff to implement such a program.
   However, instead of working to ensure that controls were in place and mitigate risks,
   the Department of Energy had focused its efforts on accelerating program operations.
   Moreover, because loan guarantee programs generally pose financial risk to the
   federal government, and this program had additional inherent risks, it was critical that
   the Department of Energy complete basic management and accountability activities to
   help ensure that it would use taxpayer resources prudently. These included
   establishing sufficient evaluation criteria and guidance for the selection process,
   resource estimates, and methods to track costs and measure program progress.
   Without completing these activities, the Department was hampered by its ability to
   mitigate risks of excessive or unnecessary losses to the federal government and
   American taxpayers.

•   Observations on Actions to Implement the New Loan Guarantee Program for
    Innovative Technologies, (GAO 07-798T, April 24, 2007). The Government
    Accountability Office found that the Department of Energy had begun
    implementation of the Loan Guarantee Program without a specific appropriation.
    GAO raised serious questions about whether the Program and its financial risks
    would be well managed. At the time of the GAO review, the Department had not
    taken steps to ensure that it had in place the critical policies, procedures, and
    mechanisms necessary to ensure the program's success. Specifically, the Department
    had not issued regulations to include: (1) programmatic, technical, and financial

________________________________________________________________________
Page 11                                                     Prior Reports
Appendix 2 (continued)

    factors for selecting projects for loan guarantees; (2) policies and procedures for
    selecting and monitoring lenders and loan performance; and, (3) any other policies or
    information necessary to implement the Program.

•   The Department of Energy: Key Steps Needed to Help Ensure the Success of the New
    Loan Guarantee Program for Innovative Technologies by Better Managing Its
    Financial Risk, (GAO-07-339R, February 28, 2007). The GAO report on the
    Department of Energy's current approach to the Loan Guarantee Program raised
    questions about whether the Program and its financial risks would be well managed.
    The Department's efforts to date focused on expediting the Program's
    implementation. For example, the Loan Guarantee Program Office issued guidelines
    and solicited pre-applications for loan guarantees, rather than making certain the
    Department had in place the critical policies, procedures, and mechanisms necessary
    to better ensure the Program's success. GAO stated that the Department could better
    ensure that the Program would be successful and financial risks to the federal
    Government would be well managed by taking key steps before selecting projects and
    issuing guarantees. 




________________________________________________________________________
Page 12                                                     Prior Reports
Appendix 3




________________________________________________________________________
Page 13                                           Management Comments
Appendix 3 (continued)




________________________________________________________________________
Page 14                                           Management Comments
Appendix 3 (continued)




________________________________________________________________________
Page 15                                           Management Comments
                                                             IG Report No. DOE/IG-0812

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
